Evaluation of the SEC’s Whistleblower
Program




                               January 18, 2013
                               Report No. 511
Evaluation of the SEC’s Whistleblower Program       January 18, 2013
Report No. 511
                                                i
We appreciate the courtesy and cooperation that your staff extended to us during
this audit.

Attachment

cc:    Erica Y. Williams, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Daniel M. Gallagher, Commissioner
       George S. Canellos, Deputy Director, Division of Enforcement
       Sean X. McKessy, Chief, Office of the Whistleblower, Division of
         Enforcement
       Jeff Heslop, Chief Operating Officer, Office of the Chief Operating Officer




Evaluation of the SEC’s Whistleblower Program                       January 18, 2013
Report No. 511
                                                ii
Evaluation of the SEC’s Whistleblower Program

                           Executive Summary
Background. Section 922 of the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank), amended the Securities Exchange Act of 1934
(Exchange Act) by adding Section 21F, “Securities Whistleblower Incentives and
Protection.” Section 21F directs the U.S. Securities and Exchange Commission
(SEC or Commission) to make monetary awards to eligible individuals who
voluntarily provide original information that leads to successful Commission
enforcement actions resulting in the imposition of monetary sanctions over
$1,000,000, and certain related successful actions. The SEC can make awards
ranging from 10 to 30 percent of the monetary sanctions collected, which are
paid from the SEC’s Investor Protection Fund (IPF). In addition, Section 924(d)
of Dodd-Frank directed the SEC to establish a separate office within the
Commission to administer the whistleblower program. In February 2011, the
Commission established the Office of the Whistleblower (OWB) to carry out this
function.

On May 25, 2011, the Commission adopted final Regulation 21F to implement
the provisions of Section 21F of the Exchange Act. Regulation 21F became
effective on August 12, 2011. Among other things, Regulation 21F defines terms
that are essential to the whistleblower’s program operations, establishes
procedures for submitting tips and applying for awards – including appeals of
Commission determinations, and whether and to whom to make an award;
describes the criteria the SEC will consider in making award decisions, and
implements Dodd-Frank’s prohibition against retaliation for whistleblowing.

OIG met with OWB’s Chief and Deputy Chief to discuss how the office handles
whistleblower complaints from the initial submission of a complaint, to the eligible
whistleblower receiving a monetary award. Our audit included a review of
OWB’s procedures, decision points, whistleblower personnel practices, and its
communications with the whistleblower.

The whistleblower process includes the following phases which are discussed in
the report:

       (1) Phase 1 - Intake/Triage.
       (2) Phase 2 - Tracking.
       (3) Phase 3 - Claim for an Award.




Evaluation of the SEC’s Whistleblower Program                        January 18, 2013
Report No. 511
                                                iii
Congressional Requirement. Section 922 of Dodd-Frank required the Office of
Inspector General (OIG) to conduct a review of the whistleblower protections that
were established under the amendments made by the section and to submit a
report of findings not later than 30 months after Dodd-Frank’s enactment to the
(1) Senate Committee on Banking, Housing, and Urban Affairs, and (2) House
Committee on Financial Services. Dodd-Frank further required that OIG make
this report available to the public on our website.

Objectives. Section 922 of the Dodd-Frank Act required OIG to evaluate the
SEC’s Whistleblower Program and answer the questions as described below.
OIG will examine whether the:

   1. Final rules and regulation issued under the amendments of Section
      922 have made the whistleblower protection program (program)
      clearly defined and user-friendly.
   2. Program is promoted on the SEC’s website and has been widely
      publicized.
   3. Commission is prompt in:
          a) responding to information provided by whistleblowers;
          b) responding to applications for awards filed by
              whistleblowers;
          c) updating whistleblowers about the status of their
              applications; and
          d) otherwise communicating with the interested parties.
   4. Minimum and maximum reward levels are adequate to entice
      whistleblowers to come forward with information, and whether the
      reward levels are so high as to encourage illegitimate whistleblower
      claims.
   5. Appeals process has been unduly burdensome for the
      Commission.
   6. Funding mechanism for the Investor Protection Fund established by
      Section 922 is adequate.
   7. In the interest of protecting investors and identifying and preventing
      fraud, it would be useful for Congress to consider empowering
      whistleblowers or other individuals, who have already attempted to
      pursue a case through the Commission, to have a private right of
      action to bring suit based on the facts of the same case, on behalf
      of the government and themselves, against persons who have
      committed securities fraud.
   8. The Freedom of Information Act (FOIA) exemption established in
      Section 21 F(h)(2)(A) of the Securities and Exchange Act of 1934,
      as added by the Dodd-Frank Act,
          a) Aids whistleblowers in disclosing information to the
              Commission.
          b) What impact the FOIA exemption described above has had
              on the ability of the public to access information about the

Evaluation of the SEC’s Whistleblower Program                       January 18, 2013
Report No. 511
                                                iv
              regulation and enforcement by the Commission of securities;
              and
           c) Any recommendations on whether the exemption described
              above should remain in effect.

The Inspector General was also given the discretion to review other matters
related to the program as appropriate.

Prior OIG Audit Reports. In March 2010, OIG conducted an audit of SEC’s now
defunct bounty program and issued Assessment of the SEC’s Bounty Program,
Report No. 474 on March 29, 2010. The objectives of this audit were to:

   (1) Assess whether necessary management controls have been
       established and operate effectively to ensure bounty applications
       are routed to appropriate personnel and are properly processed
       and tracked; and

   (2) Determine whether other government agencies with similar
       programs have best practices that could be incorporated into the
       SEC bounty program.

Although the SEC had an established bounty program for more than 20 years
that rewarded whistleblowers for insider trading tips and complaints, OIG’s report
found there were very few payments made under the program and the
Commission received very few applications from individuals seeking a bounty.
The report also found that the program was not widely recognized inside or
outside the Commission. Finally, the report determined the SEC’s bounty
program was not fundamentally well-designed to be successful.

Results. The implementation of the final rules made the SEC’s whistleblower
program clearly defined and user-friendly for users that have basic securities
laws, rules, and regulations knowledge. The whistleblower program is promoted
on the SEC’s website and the public can access OWB’s website from the site in
four or more possible ways to learn about the whistleblower program or to file a
complaint with the SEC. Additionally, OWB outreach efforts have been strong
and the SEC’s whistleblower program can be promptly located using internet
search engines such as Google, Yahoo, and Bing.

The SEC generally is prompt in responding to information that is provided by
whistleblowers, applications for whistleblower awards, and in communicating with
interested parties. However, the whistleblower program’s internal controls need
to be strengthened by adding performance metrics.

The SEC’s whistleblower program’s award levels are comparable to the award
levels of other federal government whistleblower programs, and range from 10 to
a maximum 30 percent. Based on our review of past experience of other

Evaluation of the SEC’s Whistleblower Program                      January 18, 2013
Report No. 511
                                                v
whistleblower programs and practical concerns in the administration of the SEC’s
program, we determined the SEC’s award levels are reasonable and should not
change at this time.

Currently no whistleblower appeals have been filed with the Federal Court of
Appeals. However, one whistleblower has appealed a preliminary determination
made by the Claims Review Staff. Based on our analysis of the appeals process
we do not anticipate that it has been unduly burdensome for the Commission.

Further, we determined that the funding mechanism for the Investor Protection
Fund established by Section 922 is adequate. However, we found at this time it
is too premature to introduce a private right of action into the SEC’s
whistleblower program because it has only been in place since August 2011. A
fundamental change in approach would disrupt the system currently in place.
Upon collecting additional data and assessing the effectiveness of the program
after a reasonable amount of time has passed, OIG will be in a better position to
opine on the usefulness of adding a private right of action to the SEC’s
whistleblower program.

Finally, we found the FOIA exemption that was added by Dodd-Frank aids
whistleblowers in disclosing information to the Commission by providing an
additional safeguard for whistleblower confidentiality. This exemption essentially
had no impact on the public’s ability to access information regarding the SEC’s
regulation and enforcement of federal securities laws. Therefore, we determined
the exemption should be retained.

Summary of Recommendations. This report contains two recommendations
that were developed to aid the SEC in establishing performance metrics for key
processes in its whistleblower program and to facilitate the Commission’s
monitoring of the whistleblower program’s performance.

Management’s Response to the Report’s Recommendations. OIG provided
Enforcement with the formal draft report on January 11, 2013. Enforcement
concurred with both recommendations in this report. OIG considers the report
recommendations resolved. However, the recommendations will remain open
until documentation is provided to OIG that supports each recommendation has
been fully implemented.

Enforcement’s response to each recommendation and OIG’s analysis of their
responses are presented after each recommendation in the body of this report.




Evaluation of the SEC’s Whistleblower Program                      January 18, 2013
Report No. 511
                                                vi
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ........................................................................................................vii

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 7

OIG’s Audit and Response to the Dodd-Frank Wall Street Reform and
Consumer Protection Act’s Questions and Our Recommendations ............. 9

         Question 1: Determine Whether Final Rules and Regulation Issued Under
         the Amendments of Section 922 Have Made the Whistleblower Protection
         Program Clearly Defined and User-Friendly....................................................... 9

         Question 2: Determine Whether the Whistleblower Program is Promoted
         on the SEC’s Website and has been Widely Publicized ................................... 12

         Question 3: Determine Whether the Commission is Prompt in Responding
         to Information Provided by Whistleblowers; Responding to Applications for
         Awards Filed by Whistleblowers; Communicating with Interested Parties ....... 14
                       Recommendation 1..................................................................... 21
                       Recommendation 2..................................................................... 22

         Question 4: Determine Whether Minimum and Maximum Award Levels
         are Adequate.................................................................................................... 22

         Question 5: Determine Whether Appeals Process has been Unduly
         Burdensome for the Commission ..................................................................... 24

         Question 6: Determine Whether the Funding Mechanism for the Investor
         Protection Fund is Adequate ............................................................................ 26

         Question 7: Determine Whether a Private Right of Action Should be
         Added to SEC’s Whistleblower Program .......................................................... 28

         Question 8: Determine Whether the FOIA Exemption Added by Dodd-
         Frank Aids Whistleblowers in Disclosing Information to SEC; What Impact
         it has had on the Ability of the Public to Access Commission Information;
         Should be Retained.......................................................................................... 30




Evaluation of the SEC’s Whistleblower Program                                                   January 18, 2013
Report No. 511
                                                         vii
Appendices
    Appendix I: Abbreviations................................................................................ 33
    Appendix II: Scope and Methodology............................................................... 34
    Appendix III Criteria .......................................................................................... 37
    Appendix IV: List of Recommendations ........................................................... 38
    Appendix V: Access to OWB’s Website from the SEC’s Website .................... 39
    Appendix VI: Management Comments............................................................. 41

Tables
     Table1: OIG’s Review and Assessment of Final Rules – Clearly Defined........ 10
     Table 2: OIG’s Review and Assessment of Final Rules – User-Friendly .......... 11
     Table 3: Length of Time OWB Takes to Issue Acknowledgement and
     Deficiency Letters to Whistleblower Applications ............................................. 18
     Table 4: OWB’s Telephone Callback Hotline Performance .............................. 20
     Table 5: Comparison of Award Levels for Federal Whistleblower Programs ... 24
     Table 6: SEC’s FOIA Exemption (b)(3) Denials During Fiscal Years 2010
     to 2012 ............................................................................................................. 32

Figures
     Figure 1: SEC Website ..................................................................................... 39
     Figure 2: SEC Questions and Complaints Webpage ...................................... 40
     Figure 3: OWB Website .................................................................................. 40




Evaluation of the SEC’s Whistleblower Program                                                   January 18, 2013
Report No. 511
                                                        viii
                    Background and Objectives

Background
Section 922 of the Dodd-Frank Wall Street Reform and Consumer Protection Act
(Dodd-Frank) amended the Securities Exchange Act of 1934 (Exchange Act) by
adding Section 21F, “Securities Whistleblower Incentives and Protection.”
Section 21F directs the U.S. Securities and Exchange Commission (SEC or
Commission) to make monetary awards to eligible individuals who voluntarily
provide original information that leads to successful Commission enforcement
actions resulting in the imposition of monetary sanctions over $1,000,000, and
certain related successful actions. The SEC can make awards ranging from 10
to 30 percent of the monetary sanctions collected, which are paid from its
Investor Protection Fund (IPF). In addition, Section 924(d) of Dodd-Frank
directed the SEC to establish a separate office within the Commission to
administer the whistleblower program. In February 2011, the Commission
established the Office of the Whistleblower (OWB) to carry out this function.

Section 922 of Dodd-Frank required the Office of Inspector General (OIG) to
conduct a review of the whistleblower protections that were established under the
amendments made by the section and to submit a report of findings not later than
30 months after Dodd-Frank’s enactment to the:

    •   Senate Committee on Banking, Housing and Urban Affairs; and
    •   House Committee on Financial Services.

Dodd-Frank further required that OIG make this report available to the public on
our website.

Overview of the SEC’s Whistleblower Program. On May 25, 2011, the
Commission adopted final Regulation 21F to implement the provisions of Section
21F of the Exchange Act. Regulation 21F became effective on August 12,
2011. 1 Among other things, Regulation 21F defines terms that are essential to
the whistleblower program’s operations, establishes procedures for submitting
tips and applying for awards including appeals of Commission determinations
whether/or to whom to make an award, describes the criteria the SEC will
consider in making award decisions, and implements Dodd-Frank’s prohibition
against retaliation for whistleblowing.

OIG met with OWB’s Chief and Deputy Chief to discuss how the office handles
whistleblower complaints from the initial submission to an eligible whistleblower
receiving a monetary award. Our audit consisted of reviewing OWB’s

1
 Implementation of the Whistleblower Provisions of Section 21F of the Securities Exchange Act of 1934,
Release No. 34-64545.
Evaluation of the SEC’s Whistleblower Program                                          January 18, 2013
Report No. 511
                                                Page 1
procedures, decision points, whistleblower personnel practices, and its
communications with whistleblowers.

The whistleblower process includes the phases shown below and are discussed
in the section that follows.

        (1) Phase 1 - Intake/Triage.
        (2) Phase 2 - Tracking.
        (3) Phase 3 - Claim for an Award.

Phase 1 – Intake/Triage
During Phase 1 of intake and triage, whistleblowers submit a complaint to the
SEC. Designated Division of Enforcement (Enforcement) staff review the
complaint to determine whether it should be assigned for further investigation or
based on their initial review no further action (NFA) is warranted. Whistleblowers
can submit a complaint to the SEC through its public website, by mail, or by fax.
Online submissions are automatically uploaded into the SEC’s Tips, Complaints,
and Referrals (TCR) system. Complaints received by mail and fax are manually
entered into the TCR system by the TCR intake group.

The Office of Market Intelligence (OMI), located within Enforcement, reviews all
TCRs and whistleblower complaints Enforcement receives. 2 OMI also triages all
TCRs received by Enforcement. When OMI determines a complaint warrants
further investigation, OMI assigns the complaint to one of the SEC’s 11 regional
offices, an Enforcement specialized unit, or an Enforcement Associate Director
group located in the SEC’s Headquarters. Conversely, when it is determined that
a complaint does not warrant further investigation or the complaint does not fall
into Enforcement’s priorities, OMI will designate the complaint as NFA. NFAs get
a second review before a final decision is made to close the complaint. In some
cases NFAs may be referred to an external government agency or other agency
for action.

On occasion the OWB Chief will determine that a whistleblower TCR is
sufficiently specific, timely and credible which results in the TCR being expedited
through the triage process and assigned to investigative staff by OMI.

Communication with the Whistleblower. OWB sends an acknowledgement or
deficiency letter to whistleblowers for all complaints that are received by mail or
fax. This letter includes a TCR submission number and if applicable, a
discussion of any deficiencies the office identified such as a missing TCR form



2
  While OMI reviews all TCRs submitted through the public portal and most TCRs submitted internally, some
internally-entered TCRs are routed, as appropriate, to the Office of Compliance Inspections and
Examinations or the Office of Investor Education and Advocacy directly and not reviewed by OMI.
Evaluation of the SEC’s Whistleblower Program                                         January 18, 2013
Report No. 511
                                                Page 2
(which is required), missing signatures, etc. 3 The letter further provides guidance
to the whistleblower regarding resolving the issue.

OWB also sends whistleblowers an acknowledgement letter when they
subsequently submit additional information that is used to supplement their
complaint.

Whistleblowers that use the SEC’s website to submit a complaint through the
TCR system receive a computer generated online confirmation receipt and are
provided a TCR submission number.

Additionally, phone calls to the whistleblower hotline are returned within 24
business hours.

Phase 2 – Tracking
During Phase 2, OWB personnel monitor whistleblower submissions that are
assigned to investigative staff. Also, during this Phase, OWB––tracks
whistleblower cases to document the whistleblower’s cooperation and the
content and helpfulness of whistleblower information, answers questions, and
aids Enforcement staff by providing subject matter expertise regarding the
whistleblower program.

Furthermore, OWB documents information needed to process whistleblower
awards. The office conducts quarterly conference calls with investigative staff to
reconcile items that are tracked, with work that is assigned and resourced, and to
discuss the quality of each whistleblower complaint.

A whistleblower complaint results in a successful action against a defendant if
the monetary sanctions:

    •    Exceed $1 million. The whistleblower may then be eligible for a
         monetary award if all statutory criteria are met.
    •    Do not exceed $1 million the whistleblower is not immediately
         eligible for a monetary award. However, if the case is aggregated
         with related SEC actions that arise out of a common body of
         operative facts and the total monetary sanctions in the related SEC
         actions collectively exceed $1 million, then the whistleblower may
         be eligible for an award.

Communication with the Whistleblower. Enforcement’s policy requires its
staff neither confirm nor deny that an investigation has been initiated in relation to
whistleblower complaints the SEC receives. However, to further OWB’s outreach

3
 The final rules specify that a whistleblower complaint must be either submitted online through the
Commission’s website, or the Form TCR must be either mailed or faxed to the SEC Office of the
Whistleblower. Form TCR is located in the 17 CFR Section 249.100 final rules.
Evaluation of the SEC’s Whistleblower Program                                            January 18, 2013
Report No. 511
                                                 Page 3
efforts to whistleblowers, the Commission gave OWB authority to communicate
with whistleblowers in limited circumstances. Pursuant to this authority, OWB
works closely with Enforcement and OMI staff to engage in discretionary
communication with whistleblowers when appropriate, under the following
circumstances:

    •    If NFA is determined, OWB can contact the whistleblower regarding
         the status of their complaint.
    •    If a whistleblower complaint has been assigned, OWB can inform
         the whistleblower their complaint has been reviewed and assigned
         to Enforcement staff.

Communication in these circumstances is not mandatory and is left to OWB’s
discretion. Per Enforcement’s policy, OWB will not tell the whistleblower whether
an investigation has been initiated, based on information the whistleblower has
provided to the SEC.

Phase 3 – Claim for an Award
During Phase 3 a whistleblower can claim an award if information he or she
provided to OWB leads to, or significantly contributes to a successful SEC action.
This action could result in the whistleblower receiving a monetary award if the
sanctions ordered are over $1 million. 4 OWB posts a Notice of Covered Action
on its website for cases that result in monetary sanctions over $1 million. 5
Whistleblowers have 90 days to submit a claim for an award using the Form WB-
APP (application). OWB’s website provides a notice date and a claim due date
for each covered whistleblower action.

When OWB or Enforcement staff know that a whistleblower has provided a tip
that led or significantly contributed to a successful action, they contact the
whistleblower and inform him or her that a Notice of Covered Action has been
posted on its website in connection with the tip or information he or she provided.
OWB also advises the whistleblower on the process and timeline to apply for the
award.

When a claimant submits an application, OWB reviews it to determine if it is
procedurally complete and has the information needed to fully process the
application. When the application does not have all the required information,
OWB works with the whistleblower to ensure he or she successfully completes
the application within the 90-day required timeframe by calling and/or sending a


4
  For the whistleblower program, a Commission action is considered a “covered action” under these
circumstances. See Securities and Exchange Act of 1934, Section 21F(a)(1).
5
  A Notice of Covered Action serves as a public notification that a particular case is potentially eligible for a
whistleblower award, and it begins a 90-day deadline for any interested parties to file an application for a
whistleblower award.
Evaluation of the SEC’s Whistleblower Program                                                 January 18, 2013
Report No. 511
                                                    Page 4
letter to the whistleblower that identifies deficiencies and advising the
whistleblower on processes and deadlines.

OWB staff analyze the claims for awards to assess whether the whistleblower
satisfied the eligibility and definitional requirements for an award. When a
whistleblower is determined to have satisfied these criteria, OWB then uses four
positive and three negative factors to derive a recommended award range
between 10 to 30 percent of the dollar amount that was collected in the action.

OWB’s process for its analyses includes reviewing and comparing the facts of a
claim to the whistleblower statute and regulations, reviewing relevant databases
for information regarding the case and subsequent enforcement action,
interviewing Enforcement staff regarding the case and the whistleblower’s
actions, interviewing the whistleblower and/or their counsel, and conducting due
diligence and legal research to ensure proper consideration is given to each
award claim.

The positive factors considered in recommending an award’s percentage include
the significance of the whistleblower information, assistance and cooperation
from the whistleblower in the investigation and proceedings, any law enforcement
interest advanced by a potentially higher award, and whether the whistleblower
cooperated with the company’s internal compliance system in connection with
the matter. The negative factors considered include the whistleblower’s
culpability, an unreasonable delay in reporting wrongdoing, and the
whistleblower’s interference with the company’s internal compliance system.
Though OWB considers both these positive and negative factors, the office has
discretion in making award recommendations.

When making an award recommendation OWB submits a recommendation
package to Enforcement’s Claims Review Staff. 6 They then meet with the
Claims Review Staff. A preliminary determination is prepared and forwarded to
the whistleblower. A whistleblower has 30 days to request a copy of the record
the Claims Review Staff based its decision on; and/or to request a meeting with
OWB staff.

Whistleblowers can file an appeal with OWB within 60 calendar days of the later
of:
    (i)   The date of the preliminary determination; or
    (ii)  The date when OWB made materials available for the
          whistleblower’s review.

6
  Pursuant to SEC Regulation 21F (the final rules for the whistleblower program) Section 240.21F-10,
members of the Claims Review Staff are designated by Enforcement’s Director to evaluate all timely
whistleblower award claims in accordance with the criteria established in the final rules. Based on this
evaluation, the Claims Review Staff will decide on a preliminary determination and consider appeals of their
decision if submitted timely. The Claims Review Staff currently has five members, including Enforcement
representatives from the home office, regional offices, and a representative from the Office of General
Counsel.
Evaluation of the SEC’s Whistleblower Program                                            January 18, 2013
Report No. 511
                                                 Page 5
When a whistleblower’s claim is denied in the preliminary determination phase
and the whistleblower fails to submit a timely response, the preliminary
determination becomes the SEC’s final order. If the whistleblower submits a
timely response to appeal the preliminary determination decision, OWB’s staff
will assess the appeal and make a recommendation to the Claims Review Staff.
OWB then meets again with the Claims Review Staff and the Claims Review
Staff makes a proposed final determination. OWB then notifies the Commission
of the proposed final determination. The Commission has 30 days to review this
determination. Any Commissioner can request within 30 days of receiving the
proposed final determination notification, that the proposed final determination be
reviewed by the Commission. If no Commissioner objects during the 30-day
window, the proposed final determination becomes the final order and OWB then
provides a copy of the final order to the whistleblower.

After the final order has been issued, if a whistleblower has gotten an award that
falls between 10 to 30 percent of the monetary sanctions collected in the action,
the process is complete and the amount is not subject to appeal. However, if the
whistleblower did not receive an award, or the award percentage is outside the
statutory 10 to 30 percent that is collected from an action, the whistleblower may
appeal the decision at the Federal Court of Appeals level. The Office of the
General Counsel (OGC) handles these appeals for the Commission.

Whistleblower awards are paid out of the IPF that was established in the Dodd-
Frank Act. Payments from the IPF are made through the SEC’s Office of
Financial Management (OFM) and are based on amounts that were collected
from each individual case. A single payment can be made to the whistleblower if
all monies are collected at the time the final order is issued, or the payment can
occur on a rolling basis if the monies are collected over time, after the final order
is issued.

Communication with Whistleblowers. To the extent a whistleblower is known
to have participated in a covered action, OWB contacts the whistleblower to
advise him or her that a Notice of Covered Action was posted on OWB’s website
and provide guidance on the processes and timeline to apply for an award.

An acknowledgement or deficiency letter is sent to anyone who submits a claim
for an award to the SEC. The OWB may discuss with the whistleblower the
evidence that was presented when assembling the claims recommendation
package for the Claims Review Staff.

Whistleblowers have the right to review the record, to request a meeting with
OWB, and/or to appeal a preliminary determination decision. A copy of the
preliminary determination, proposed final determination, if applicable, and the
final order is sent to the whistleblower.



Evaluation of the SEC’s Whistleblower Program                         January 18, 2013
Report No. 511
                                          Page 6
Objectives
Objectives. Section 922 of the Dodd-Frank Act required OIG to evaluate the
SEC’s Whistleblower Program and answer the questions described below. OIG
will examine whether the:

   1. Final rules and regulation issued under the amendments of Section
      922 have made the whistleblower protection program (program)
      clearly defined and user-friendly.
   2. Program is promoted on the SEC’s website and has been widely
      publicized.
   3. Commission is prompt in:
          a) responding to information provided by whistleblowers;
          b) responding to applications for awards filed by
              whistleblowers;
          c) updating whistleblowers about the status of their
              applications; and
          d) otherwise communicating with the interested parties.
   4. Minimum and maximum reward levels are adequate to entice
      whistleblowers to come forward with information, and whether the
      reward levels are so high as to encourage illegitimate whistleblower
      claims.
   5. Appeals process has been unduly burdensome for the
      Commission.
   6. Funding mechanism for the Investor Protection Fund established by
      Section 922 is adequate.
   7. In the interest of protecting investors and identifying and preventing
      fraud, it would be useful for Congress to consider empowering
      whistleblowers or other individuals, who have already attempted to
      pursue a case through the Commission, to have a private right of
      action to bring suit based on the facts of the same case, on behalf
      of the government and themselves, against persons who have
      committed securities fraud.
   8. The Freedom of Information Act (FOIA) exemption established in
      Section 21 F(h)(2)(A) of the Securities and Exchange Act of 1934,
      as added by the Dodd-Frank Act,
          a) Aids whistleblowers in disclosing information to the
              Commission.
          b) What impact the FOIA exemption described above has had
              on the ability of the public to access information about the
              regulation and enforcement by the Commission of securities;
              and
          c) Any recommendations on whether the exemption described
              above should remain in effect.


Evaluation of the SEC’s Whistleblower Program                       January 18, 2013
Report No. 511
                                          Page 7
The Inspector General was also given the discretion to review other matters
related to the program as appropriate for this audit.

Omission of Sensitive Information. Pursuant to Section 21F(h)(2) of the
Exchange Act, we have not included any information in this report that could
potentially reveal the identity of a whistleblower.




Evaluation of the SEC’s Whistleblower Program                     January 18, 2013
Report No. 511
                                          Page 8
OIG’s Audit and Response to the Dodd-Frank
Wall Street Reform and Consumer Protection
Act’s Questions and Our Recommendations


Question 1: Determine Whether Final Rules and
Regulation Issued Under the Amendments of
Section 922 Have Made the Whistleblower
Protection Program Clearly Defined and User-
Friendly
Pursuant to the Dodd-Frank Act, Section 922(d)(1)(A), we assessed whether the
final rules and regulations issued under the amendments of Section 922 have
made the whistleblower protection program clearly defined and user-friendly. 7
OIG determined that the implementation of the final rules have made the SEC’s
whistleblower program clearly defined and user-friendly for users that have basic
securities laws, rules, and regulations knowledge.

Final Rules Primary Audience Has Some Knowledge of
Securities Laws, Rules, and Regulations
According to the OWB Chief, the final rules were primarily written for potential
whistleblowers, compliance officers, corporate counsel, and law firms that are
engaged in whistleblower litigation. The final rules generally exclude certain
people from receiving awards under the whistleblower program such as directors,
corporate officers, compliance officers, and auditors with some exceptions. 8 The
primary demographic for prospective whistleblowers include middle management
personnel, controllers, finance department personnel, and other employees who
are involved in international transactions. 9 Prospective whistleblowers may
submit tips or complaints related to securities law violations to the SEC.
Prospective whistleblowers generally have some securities laws, rules,


7
  17 CFR Parts 240 and 249, Implementation of the Whistleblower Provisions of Section 21F of the
Securities Exchange Act of 1934.
8
  17 CFR 240 Section 21F-4(b)(4) excludes information from several sources as meeting the definition of
providing “original information” required in the definition of a whistleblower. Some examples include
information obtained under attorney-client privilege, if you obtain information because you were an officer,
director, trustee, compliance officer, internal auditor, public accountant in an engagement required by the
securities laws, etc. The rules provide for some exceptions whereby the above classes of people may
submit original information as a whistleblower.
9
  Employees involved in international transactions may have knowledge about the Foreign Corrupt Practices
Act violations which is a reportable violation under the SEC’s whistleblower program.
Evaluation of the SEC’s Whistleblower Program                                            January 18, 2013
Report No. 511
                                                 Page 9
regulations knowledge and an understanding of the SEC’s role in the financial
markets.

The OWB has a hotline telephone number on its website that potential whistle-
blowers can call to inquire about the SEC’s whistleblower program. OWB’s Chief
informed us that most hotline callers did not indicate they did not understand the
rules, but instead, wanted reassurance from OWB’s staff regarding the filing
process concerning their cases, before filing a formal complaint with the SEC.

OIG reviewed the final rules from the perspective of an individual having basic
knowledge of securities laws, rules, and regulations to determine whether they
were clearly defined and user-friendly. Clearly defined final rules are specific,
straightforward, and unambiguous. User-friendly final rules are easy to learn,
use, understand, and navigate. OIG identified attributes of the final rules that
make SEC’s whistleblower program “clearly defined” and “user-friendly.” As
shown below, Tables 1 and 2 illustrate our review and assessment of the final
rules.

        Table 1: OIG’s Review and Assessment of Final Rules –
        Clearly Defined
              Clearly Defined                          Text of Final Rules
                Attributes
         Defines a whistleblower.          You are a whistleblower if, alone or jointly
                                           with others, you provide the Commission with
                                           information pursuant to the procedures set
                                           forth in Section 240.21F-9(a) of this chapter,
                                           and the information relates to a possible
                                           violation of the federal securities laws
                                           (including any rules or regulations thereunder)
                                           that has occurred, is ongoing, or is about to
                                           occur. A whistleblower must be an individual.
                                           A company or another entity is not eligible to
                                           be a whistleblower.
         Explains the conditions           The Commission will pay an award or awards
         required to receive an            to one or more whistleblowers who:
         award.                            (1) Voluntarily provide the Commission
                                           (2) With original information
                                           (3) That leads to the successful enforcement
                                           by the Commission of a federal court or
                                           administrative action
                                           (4) In which the Commission obtains
                                           monetary sanctions totaling more than
                                           $1,000,000.
         Clearly explains the              The terms voluntarily, original information,
         pertinent terms related to        leads to successful enforcement, action, and
         receiving an award.               monetary sanctions are defined in Section
                                           240.21F-4 of this chapter.
        Source: 17 CFR Parts 240 and 249




Evaluation of the SEC’s Whistleblower Program                                     January 18, 2013
Report No. 511
                                             Page 10
           Table 2: OIG’s Review and Assessment of the Final Rules –
           User-Friendly
            User-Friendly Attributes                          Text of Final Rules
            Outlines procedures for             To be considered a whistleblower . . ., you
            submitting original                 must submit your information about a
            information.                        possible securities law violation by either of
                                                these methods:
                                                (1) Online, through the Commission’s
                                                website located at www.sec.gov; or
                                                (2) By mailing or faxing a Form TCR (Tip,
                                                Complaint or Referral) (referenced in Section
                                                249.1800 of this chapter) to the SEC Office
                                                of the Whistleblower, 100 F Street NE,
                                                Washington, DC 20549-5631, Fax (703) 813-
                                                9322.
            Outlines procedures for             A claimant will have ninety (90) days from
            making a claim for a                the date of the Notice of Covered Action to
            whistleblower award.                file a claim for an award based on that
                                                action, or the claim will be barred.

                                                To file a claim for a whistleblower award, you
                                                must file Form WB-APP, Application for
                                                Award for Original Information Provided
                                                Pursuant to Section 21F of the Securities
                                                Exchange Act of 1934 (referenced in Section
                                                249.1801 of this chapter). You must sign this
                                                form as the claimant and submit it to the
                                                Office of the Whistleblower by mail or fax.
           Source: 17 CFR Parts 240 and 249

OIG determined that an individual with basic securities laws, rules, and
regulations knowledge can easily understand the SEC’s whistleblower program
requirements by reading the final rules and information the SEC provides on its
website. Further, the procedures for submitting original information (i.e., a
whistleblower complaint) or an application for an award are easy to understand
and navigate. 10 Finally, OWB’s website, which is discussed in-depth in the next
section, enhances the “user-friendliness” of the program by providing a direct link
to the final rules and answering commonly asked questions about the program.
The OWB hotline is also available to address questions about the SEC’s
whistleblower program. Therefore, OIG determined that the final rules as
implemented by OWB have made the program clearly defined and user-friendly
for individuals having basic securities laws, rules, and regulations knowledge.



10
   The final rules state that the whistleblower must submit “original information” in order to be eligible for a
whistleblower award. In order for a whistleblower submission (or complaint) to be considered original
information, it must be: (i) derived from the whistleblower’s independent knowledge or analysis; (ii) not
already known to the Commission from any other source, unless the whistleblower is the original source of
the information; (iii) not exclusively derived from an allegation made in a judicial or administrative hearing, in
a governmental report, hearing, audit, or investigation, or from the news media, unless the whistleblower is a
source of the information; and (iv) provided to the Commission for the first time after July 21, 2010, Dodd-
Frank Wall Street Reform and Consumer Protection Act enactment date.
Evaluation of the SEC’s Whistleblower Program                                                January 18, 2013
Report No. 511
                                                   Page 11
Question 2: Determine Whether the Whistle-
blower Program is Promoted on the SEC’s
Website and has been Widely Publicized
Pursuant to the Dodd-Frank Act, Section 922(d)(1)(B), OIG determined that the
whistleblower program is promoted on the SEC’s website, that OWB’s website is
readily accessible from the SEC’s website and the program has been widely
publicized by a strong internet presence and OWB’s outreach efforts.

The Whistleblower Program on the SEC’s Website and
Accessibility to OWB’s Website
OIG tested the ease of accessing whistleblower information on the SEC’s
website to determine if this information is prominently displayed and promoted.
We determined that information about the whistleblower program is prominently
displayed on the SEC’s website and OWB’s website is easily accessible. SEC’s
website includes images related to SEC programs that rotate on its website every
few seconds. One image consists of a large whistle with the caption
“Whistleblower Information” that has a hyperlink to OWB’s website. The SEC’s
website also includes a “Submit a Tip or File a Complaint” hyperlink that takes
users to a “Questions and Complaints” webpage. This webpage also includes
hyperlinks that take the public directly to OWB’s website.

Overall, OWB’s website can be accessed from SEC’s website in several different
ways. See Appendix V for detailed information on accessing OWB’s website.

OIG’s review of the SEC’s website activity determined that OWB’s website
received 135,906 hits from August 2011 to September 2012. From July 2012 to
September 2012, OWB’s website was ranked in the top 100 most viewed SEC
uniform resource locators (URL). 11

The SEC’s whistleblower program has been promoted on OWB’s website since
August 12, 2011, when the whistleblower final rules went into effect. 12 The
website includes two videos from OWB’s Chief––a welcome video and a video
explaining what happens to a whistleblower’s tip once the SEC receives it. OWB
also coordinates with the Office of Investor Education and Advocacy and the
Office of Public Affairs and “tweets” to approximately 200,000 followers each time
a new group of Notices of Covered Actions is posted to its website. Also, OWB
sends email alerts to GovDelivery 13 when its website is updated. 14

11
   In 2012, the website won the Chairman’s Award for Excellence in Information Technology.
12
   See www.sec.gov/whistleblower.
13
   GovDelivery is a vendor that provides communications services for public sector clients.
14
   Request to close audit recommendation one from OIG’s report “Assessment of the SEC’s Bounty
Program,” Report No 474.
Evaluation of the SEC’s Whistleblower Program                                       January 18, 2013
Report No. 511
                                              Page 12
OWB Website Presence on Major Internet Search Engines
OIG conducted an internet search using the key word “securities whistleblower”
to evaluate the SEC’s whistleblower program’s online presence and found
OWB’s website on the first page of our Google, Yahoo, and Bing searches.
Further, our use of the key word “whistleblower” found OWB’s website was
located on the first page of Google 15 and Yahoo’s 16 internet search engines and
on the second page for Bing. 17

Outreach Efforts by the OWB
Internal Training. OWB posted training and guidance on both the Enforcement
and the Commission intranet sites regarding whistleblower issues and rules.
OWB provided training to various SEC divisions, offices, and internal groups who
are likely to be involved in whistleblower matters.

OIG reviewed a list of 40 different presentations that OWB personnel gave to
SEC staff and others from May 2011 to November 2012. Eleven of these 40
presentations were used in internal training sessions. Our review of the slides for
the Miami Regional Office internal training given on April 30, 2012 included
amongst other things, the OWB Chief’s background, office structure, office
priorities, program creation, detailed overview of the program, and OWB staff’s
contact information.

Public Speaking Appearances. OWB has a written policy regarding its staff
accepting public speaking appearances to guard against the SEC appearing to
favor the interests of one constituency over another. OWB’s three main
constituencies are:

        (1) Whistleblowers (general public);
        (2) Corporate counsel and compliance personnel; and
        (3) Plaintiff’s counsel.

In deciding whether to make a public appearance, OWB’s policy requires a
balance of factors such as, the expected size and constituency of the audience,
the feasibility of participating remotely via video link or webinar, geography, and
whether the group is considered an educational or lobby group.

OIG found that of the 29 external presentations OWB gave from May 2011 to
November 2012, four consisted of interviews for publications and 25 were for
panels, summits, conferences and other professional events.



15
   See www.goggle.com.
16
   See www.yahoo.com.
17
   See www.bing.com.
Evaluation of the SEC’s Whistleblower Program                        January 18, 2013
Report No. 511
                                         Page 13
Conclusion
Because of the accessibility of OWB’s website from the SEC’s website, the
program’s promotion through various social media methods, prominent presence
on major internet search engines, and OWB’s internal and external outreach
efforts, we determined the SEC’s whistleblower program is effectively promoted
on its website and is widely publicized.


Question 3: Determine Whether the Commission
is Prompt in Responding to Information Provided
by Whistleblowers; Responding to Applications
for Awards Filed by Whistleblowers;
Communicating with Interested Parties
Pursuant to the Dodd-Frank Act, Section 922(d)(1)(C), OIG determined the SEC
was generally prompt in responding to information provided by whistleblowers, in
responding to applications for whistleblower awards, and communicating with
interested parties. However, the program’s internal controls need to be
strengthened by adding performance metrics.

The SEC, Enforcement, OWB and OMI have written policies and manuals that
cover TCR processing which includes whistleblower TCRs, manual triage,
whistleblower tracking and other procedures its staff use in processing
whistleblower complaints that are submitted to the SEC. 18

Whistleblower TCR Testing Attributes and Results
To determine the Commission’s promptness in responding to information that
whistleblowers provide, OIG tested a statistical sample of 74 whistleblower TCRs
that were submitted to the SEC from April 12, 2011 to September 30, 2012 using
the following attributes: 19

     •   Date TCR was submitted.
     •   Who submitted the TCR (General public or SEC staff). 20
     •   Date of initial review.

18
   Manual triage is the process by which a TCR is evaluated to: (i) determine whether the information
submitted suggests a possible violation of the federal securities laws; (ii) identify the relevant parties; and (iii)
gather additional information to assess the credibility and potential risk associated with the TCR. Manual
triage also includes making an initial determination as to whether and where the TCR should be assigned for
resolution.
19
   See Appendix II for our sampling methodology.
20
   SEC staff manually enters TCRs into the TCR system received from whistleblowers in hard copy or
facsimile.
Evaluation of the SEC’s Whistleblower Program                                                   January 18, 2013
Report No. 511
                                                    Page 14
     •   Time elapsed between TCR submission and initial review.
     •   Date TCR was designated for No Further Action (NFA).
     •   Time elapsed between initial review and NFA.
     •   Date TCR was assigned to a point of contact (POC).
     •   Time elapsed between initial review and assigned to POC.
     •   Percentage of TCRs that were NFA and active Matters Under
         Inquiry (MUI)/Investigation.
     •   Whether active MUIs/Investigations were being tracked in OWB’s
         Case Tracking System.

The SEC, Enforcement, OWB, and OMI further have policies that govern how
TCRs will be reviewed and allocated. The SEC’s promptness in responding to
information whistleblowers provide is primarily determined by how quickly the
TCR is processed while in Phase 1 manual triage. Although OMI generally
responds promptly to whistleblower’s submissions and it has detailed written
procedures for manual triage, OIG determined it has not established written
timeliness standards for these processes. We found the average time TCR’s are
in the manual triage process before it is either assigned to a POC or is
designated as NFA is acceptable. 21 Although OWB tracks the progress of
whistleblower TCRs in manual triage, OMI owns the process and is responsible
for its performance.

Our testing also revealed some general characteristics of the TCR whistleblower
population such as:

     •   The percentage of whistleblower TCRs submitted online by the
         public;
     •   The percentage of whistleblower TCRs that were designated as
         NFA or were assigned to investigative staff; and
     •   Whether OWB was actively tracking whistleblower cases.

Additionally our testing found that of 74 whistleblower TCR submissions in our
sample, 85 percent (63 of 74) were submitted online and 15 percent (11 of 74)
were submitted to the SEC in another format such as, through the mail or by
fax. 22 In the later cases OMI or OWB staff manually entered the complaints into
the TCR.

Average Timeline for OMI Staff’s Initial Review. The average time it takes OMI
staff to initially review a whistleblower TCR once OMI has received it, is less than
one day. Moreover, our review of 74 complaints found that 53 percent (39 of 74)
of complaints were reviewed the same day the SEC received it; 31 percent (23 of

21
   Based on their initial review, OMI determines that some complaints require NFA. The complaint is
designated NFA and is closed in TCR. Every TCR is reviewed by two OMI attorneys before it is designated
NFA.
22
   The public may submit tips or complaints directly into TCR through the SEC’s public website. The SEC’s
website has a hyperlink the public can use to submit tips and complaints that leads to the TCR portal.
Evaluation of the SEC’s Whistleblower Program                                          January 18, 2013
Report No. 511
                                               Page 15
74) were reviewed in a day; 9 percent (7 of 74) were reviewed in 2 days; and 7
percent (5 of 74) were reviewed in 3 days of being submitted to the SEC.

Average Timeline for Initial NFA Determination. OIG’s review of 51 NFA
determinations found the average time from when the complaint is initially
reviewed by SEC staff, to when a NFA determination was made, was 31 days.
Our sample included a NFA determination being made the same day the TCR
was submitted to the SEC, to one that was made 249 days after the TCR was
submitted to the SEC. Overall, most NFA determinations were made in less than
30 days.

Our testing further found that 63 percent (32 of 51) of NFA determinations were
made in less than 30 days. Twenty of the 32 were determined in less than 10
days, while 37 percent (19 of 51) were made in 30 days or more.

POC Assignment Timeline. Whistleblower TCRs are assigned a POC when
OMI staff determines the TCR warrants further investigation. Based on OMI’s
allocation principles, the TCR is forwarded to a regional office, a specialized
investigative unit, or a Headquarters Associate Director group in Enforcement.
The average length of time from when the complaint is initially reviewed to a
POC being assigned by OMI staff was 10 days.

The range of our testing consisted of a review of 38 POC assignments to include
those made the same day the SEC received the complaint and assignments that
were made 44 days after the SEC received the complaint. Overall, OIG found
that 92 percent (35 of 38) of complaints were assigned a POC in less than 30
days after the SEC received it. Further, 25 of the 35 were assigned POCs in less
than 10 days. Finally, 8 percent (3 of the 38) were assigned a POC in 30 days or
more, after the SEC received the complaint.

NFA and Active MUIs/Investigations in Case Tracking System. OIG’s testing
of whistleblower TCRs found that 69 percent (51 of 74) of complaints were
designated NFA by OMI staff and 31 percent (23 of the 74) were still being
actively worked on. 23

OIG further reviewed and tested 18 TCRs that were identified as being related to
active MUIs/Investigations and found 94 percent (17 of 18) were in OWB’s Case
Tracking System. 24


23
   Designating a WB-TCR NFA does not necessarily reflect a negative assessment of the quality of
information provided. Some TCRs may be designated NFA, if, for example, the tip related to a matter that is
currently being investigated, or is more appropriate to be investigated by another regulatory law enforcement
agency.
24
   OWB’s system is used to track the progress of whistleblower cases and it helps ensure OWB attorneys
maintain communication with investigative groups working whistleblower cases. The TCR from our sample
that was not in the case tracking system is located in HUB, which is Enforcement’s tracking system for MUIs
and investigations.
Evaluation of the SEC’s Whistleblower Program                                            January 18, 2013
Report No. 511
                                                Page 16
Documented Metrics. OIG requested documented metrics to support the
number of days a TCR should be in manual triage before it is designated as
NFA, or is assigned to a POC. The Acting Chief of OMI informed OIG that the
office does not have written policy covering the number of days a TCR should
remain in manual triage. She indicated the average length of time in the last year
or so, was approximately 4 to 5 business days. However, some timeframes are
much longer due to unusual circumstances, such as a TCR requiring
independent privilege review prior to being assigned to investigative staff or
additional information being needed from the complainant. OMI tracks the age of
work items through weekly aging reports. Other than TCRs requiring privilege
review, OMI encourages staff to act on work items within 60 days.

Although OMI is generally very responsive to TCRs in the manual triage process,
there is no standard to determine whether the response time is prompt or not.
Performance metrics are needed to strengthen the internal controls of the manual
triage process. This is needed to ensure consistency in the SEC’s processes as
new personnel are assigned to the office and as turnover occurs. A lack of
performance metrics may result in the degradation of performance and pertinent to
this review, unnecessarily long response times to whistleblower information.

Whistleblower Application Response
The final rules specify timelines and procedures for whistleblower award
applications. When a Notice of Covered Action is posted to OWB’s website,
whistleblowers have 90 days to submit an application for an award to the SEC
using the Form WB-APP (application). When the application is received an OWB
attorney logs it into a tracking sheet and then conducts a preliminary review of
the application to determine its initial disposition. Each application receives
either an acknowledgement or deficiency letter. If all the required information is
properly addressed in the application, an acknowledgement letter is issued to the
whistleblower applicant. If additional information is needed for the application, a
deficiency letter is issued to the whistleblower applicant.

Our review of 10 acknowledgement and deficiency letters found on average,
OWB staff sent these letters to whistleblower applicants within 27 days after the
whistleblower’s application was received. Table 3 shown below, illustrates the
results of our review of deficiency letters. When the 122 day outlier is removed
from our sample, the average number of days the acknowledgment or deficiency
letter is sent to whistleblowers drops to 16.




Evaluation of the SEC’s Whistleblower Program                       January 18, 2013
Report No. 511
                                         Page 17
            Table 3: Length of Time OWB Takes to Issue Acknowledgement
            and Deficiency Letters to Whistleblower Applications
               Sample         Application        Letter Sent         Days
               Number          Received                             Elapsed
                   1            10/19/11           11/18/11             30
                   2              2/7/12             6/8/12            122
                   3             2/24/12             3/6/12             11
                   4              8/6/12            8/28/12             22
                   5              2/8/12            2/15/12              7
                   6            10/28/11           11/18/11             21
                   7             11/9/11           11/18/11              9
                   8             2/22/12            2/27/12              5
                   9              2/2/12            2/27/12             25
                  10             4/24/12             5/8/12             14
               Average                                                 27
                Days
            Source: OWB Whistleblower Application Log and Acknowledgement/
            Deficiency Letters

In general, OWB is prompt in responding to applications for awards that are filed
by whistleblowers. However, this is another area in the whistleblower program
that OIG determined had no performance metrics. Although there were no
adverse consequences for delayed response time shown in Table 3, sample
number 2, there could have been adverse consequences. For example, if the
whistleblower’s application was deficient, the deficiency letter would have arrived
after the deadline for an award application (e.g., 90 days after the Notice of
Covered Action was posted). This would have resulted in the whistleblower
being ineligible for an award, unless special consideration was given by SEC.

Updating Whistleblowers About the Status of Their Applications
Below are the ways OWB communicates with whistleblowers after they submit an
award application to the SEC:

   •   An acknowledgement or deficiency letter is sent to all applicants
       indicating whether the whistleblower’s application is procedurally
       correct.
   •   An OWB attorney who conducts a full review of a covered action
       generally communicates with whistleblowers who have submitted
       award applications under a covered action.
   •   A written notification of the Claims Review Staff’s preliminary
       determination and whistleblower rights in the awards claims
       process are sent to the applicant.
   •   There’s an opportunity for the whistleblower to request the record
       that was used by the Claims Review Staff in making the preliminary
       determination.
   •   There’s an opportunity for the whistleblower to request a meeting
       with OWB to discuss the preliminary determination.
Evaluation of the SEC’s Whistleblower Program                                 January 18, 2013
Report No. 511
                                           Page 18
   •   If a claim is appealed to the Claims Review Staff, (1) a written
       acknowledgment of receipt of appeal and (2) the results of the
       appeal (i.e., proposed final determination), will be sent to the
       whistleblower.
   •   If the preliminary determination is not appealed to the Claims
       Review Staff and no award is made, OWB sends a letter enclosing
       the final order of the Commission to the whistleblower.
   •   Written notification of a proposed final determination being issued
       (whether pursuant to an appeal to the Claims Review Staff or by
       virtue of the preliminary determination becoming a proposed final
       determination under the statute in the case of an award being
       recommended).
   •   Notification of the Commission’s final order.

OWB uses different methods to update whistleblowers on the status of their
applications. In most cases this communication is event-driven, (e.g., after a
preliminary determination has been issued by the Claims Review Staff), rather
than timeline driven. Our review determined that OWB’s communication with
whistleblowers who submit award applications is effective and appropriate.

Communications with the Interested Parties
OWB’s communication with interested parties (the whistleblower and/or counsel
for the whistleblower) is detailed in earlier sections of this report and was shown
to be generally prompt. However, the whistleblower hotline voicemail offers
another means whereby interested parties can communicate with OWB. OWB’s
written policies specify that all voicemails received on its public telephone line are
to be returned within 24 business hours and at least two OWB staff should be on
the call.

We selected a sample of all calls that were received from various dates and
tested them against OWB’s phone policy. Our testing included whether: (1) calls
were returned within 24 business hours, and (2) calls were made with less than
two OWB staff on the call. OWB’s callback hotline performance is shown in
Table 4.




Evaluation of the SEC’s Whistleblower Program                         January 18, 2013
Report No. 511
                                         Page 19
           Table 4: OWB’s Telephone Callback Hotline Performance
               Date         Number of           Less than 2     Calls Not
                              Calls             Staff on Call   Returned
                                                                within 24
                                                                 hours
              9/19/11            14                  0             0
             10/19/11            15                  0             1
              11/8/11            13                  0             0
             12/12/11            13                  0             1
              2/16/12            11                  0             0
              4/11/12             7                  0             0
               6/5/12            15                  0             3
              8/29/12            16                  0             0
              9/11/12            22                  0             0
               Total            126                  0             5
           Source: OWB Phone Call Log

As illustrated in Table 4, OWB complied with its policy to have two staff on hotline
call backs 100 percent of the time. Four percent (5 of 126) of OWB hotline calls
were not returned with 24 business hours. Therefore, 96 percent of the time
OWB complied with its call-back policy. For the 5 exceptions found in our
sample, call backs were made within 48 hours after the calls were received. It
should be noted that for some calls in OWB’s log such as hang ups, unintelligible
messages, no call back number, and frequent/abusive callers––OWB did not
return the call.

Based on our review of OWB’s response to information provided by
whistleblowers, their communication with whistleblowers and their prompt
response to calls made on OWB’s hotline, we determined OWB promptly
communicated whistleblower information to interested parties in whistleblower
cases.

Internal Controls for the Whistleblower Program
The Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, requires management to establish and
maintain internal control to achieve the objectives of effective and efficient
operations, reliable financial reporting, and compliance with applicable laws and
regulations. Monitoring the effectiveness of internal control should occur in the
normal course of business. In addition, periodic reviews, reconciliations or
comparisons of data should be included as part of the duties of regular assigned
personnel. We determined that adding metrics for certain key performance areas
of the whistleblower program will assist OWB in monitoring program performance
and making corrections as necessary.

In two particular areas OIG found that OWB and OMI have not established any
performance metrics. First, with respect to OMI, there is no standard on how
long a TCR should remain in manual triage. Our sample testing indicated the
Evaluation of the SEC’s Whistleblower Program                          January 18, 2013
Report No. 511
                                         Page 20
average time a TCR is designated as NFA in the manual triage process is 31
days. This included a TCR designated as NFA on the same day it was received,
as well as a TCR that was designated as NFA 249 days after it was submitted to
the SEC. On average TCRs assigned to a POC were in manual triage for 10
days. These timelines may be appropriate; however there is no standard by
which performance can be measured. Thoughtfully chosen performance metrics
will strengthen the whistleblower program’s internal controls and ensure
consistency in its processes and procedures as new personnel are assigned to
OMI and turnover occurs. A lack of performance metrics may result in the
degradation in performance and unnecessary long response times to
whistleblower information.

OWB did not have a performance metric for the maximum length of time staff
should respond to applications for awards filed by whistleblowers. Our audit
found OWB sent an acknowledgement letter to a whistleblower applicant 122
days after the application was submitted. Though there were no adverse
consequences for this delayed response, there could have been consequences.
For example, if the whistleblower application was deficient, the deficiency letter
would have arrived after the award application deadline, which is 90 days after a
Notice of Covered Action is posted. This would have resulted in the
whistleblower being ineligible for an award, unless special consideration was
given by the SEC.

Conclusion
OWB has developed an internal control plan that identifies several quantitative
and qualitative key performance measures. An example of the quantitative
performance measure is “average length of time to respond to applications of
awards filed by whistleblowers.” OWB and OMI should take this measure one
step further and use the data collected on key performance measures to
establish meaningful performance metrics that will enable the office to objectively
measure the whistleblower program’s performance. For example, OWB could
establish a policy that the office will send either an acknowledgement or
deficiency letter to a whistleblower within 30 days after receiving the
whistleblower’s award application. OMI could also establish a policy that TCRs
should remain in manual triage no longer than 30 days unless a justification is
provided to the OMI Chief. These examples are not intended to be prescriptive;
however, they are the types of metrics OWB and OMI should establish.

       Recommendation 1:

       The Division of Enforcement should ensure that the Office of Market
       Intelligence (OMI) assesses the manual triage process and establishes
       key performance metrics that can be used to measure process
       performance. These performance metrics should be documented in OMI’s
       written policies and procedures.
Evaluation of the SEC’s Whistleblower Program                       January 18, 2013
Report No. 511
                                         Page 21
       Management Comments. Enforcement concurred with this
       recommendation. See Appendix VI for management’s full comments.

       OIG Analysis. We are pleased Enforcement concurred with this
       recommendation.

       Recommendation 2:

       The Division of Enforcement should ensure that the Office of the
       Whistleblower (OWB) assesses the key performance measures that are
       contained in their internal control plan and develop performance metrics
       where appropriate. These performance metrics should be added to
       OWB’s internal control plan.

       Management Comments. Enforcement concurred with this
       recommendation. See Appendix VI for management’s full comments.

       OIG Analysis. We are pleased Enforcement concurred with this
       recommendation.


Question 4: Determine Whether Minimum and
Maximum Award Levels are Adequate
Pursuant to the Dodd-Frank Act, Section 922(d)(1)(D), our assessment of
whether the minimum and maximum reward levels are adequate to entice
whistleblowers to come forward with information and the reward levels are high
enough to encourage illegitimate whistleblower claims found the SEC’s
whistleblower award levels are comparable to other federal government agencies
with the maximum award level being 30 percent in all the programs we reviewed.
Based on the past experience of other whistleblower programs and practical
concerns in the administration of the SEC’s program, we determined the SEC’s
whistleblower minimum and maximum award levels are reasonable.

Review of Academic Literature on Minimum and Maximum
Award Levels for Whistleblower Programs
Dodd-Frank Act allows qualifying whistleblowers to receive 10 to 30 percent of
collected sanctions from successful lawsuits that are brought by the Commission,
based on original information the whistleblower provided to the SEC. Since
whistleblower award amounts were not a debated part of the Dodd-Frank Act, it
appears the award levels may be based on the percentages used by other
federal government agencies with whistleblower programs. Additionally, few
empirical studies have been done on how monetary award levels influence
whistleblowing behavior. The two most detailed studies we reviewed concluded
Evaluation of the SEC’s Whistleblower Program                      January 18, 2013
Report No. 511
                                         Page 22
high rewards can motivate potential whistleblowers to come forward because the
monetary amount may mitigate the cost of professional and social sanctions that
can result.

OWB Staff’s Views
The OWB Chief informed OIG that it is important to have an award floor to
incentivize whistleblowers to come forward. A guaranteed award amount
mitigates the risk to whistleblowers’ employment prospects or reputation.
Although he believes there’s no theoretical need for a ceiling on awards, OWB’s
Chief feels it is useful for the office, for practical purposes to limit awards to 30
percent. Since OWB recommends the amount of each award based on merits
without relation to other awards that are granted, this process is made simpler
when limited to a clearly stated award range. The Chief further told OIG that the
SEC’s current 10 to 30 percent range appears to be appropriate.

Views of Other Federal Government Agencies’ Whistleblower
Programs
We solicited views from other federal government agencies with whistleblower
programs on the minimum and maximum award levels that are established in
their programs. Respondents typically indicated they did not have an opinion on
award levels since the award levels were statutorily mandated. Further,
respondents were not particularly concerned that award levels could induce
illegitimate claims since they were confident their review process would weed out
illegitimate claims through independent corroboration of asserted facts. One
respondent suggested that a hard cap on whistleblower awards may be
appropriate in cases where the recovery is substantial. However, the respondent
also believed that whistleblower attorneys and advocacy groups would strongly
oppose such caps.

Comparison of Whistleblower Award Levels
As shown below, Table 5 compares the SEC’s whistleblower award levels to the
award levels that are established at the U.S. Commodity Futures Trading
Commission (CFTC), U.S. Internal Revenue Service (IRS), and Department of
Justice (DOJ).




Evaluation of the SEC’s Whistleblower Program                         January 18, 2013
Report No. 511
                                         Page 23
                   Table 5: Comparison of Award Levels for Federal
                   Whistleblower Programs
                         Government              Minimum Award             Maximum
                           Agency                   Collected               Award
                                                                           Collected
                             SEC                         10%                  30%
                             CFTC                        10%                  30%
                              IRS                        15%                  30%
                             DOJ                         15%                  30%
                         (Government)*
                             DOJ                         25%                  30%
                       (Non-government)*
                   Source: OIG Questionnaire
                   * DOJ’s False Claim Act has two scenarios under which an individual
                   may collect an award when the government: (1) intervenes; and
                   (2) does not intervene.

Whistleblower award levels are comparable across federal government
whistleblower programs. As shown in Table 5, the maximum whistleblower
award level is 30 percent for each agency we identified. Based on the past
experience of other whistleblower programs and practical concerns in
administering the SEC’s program, we concluded the SEC’s minimum and
maximum award levels are consistent with other federal agencies and appear to
be reasonable.

Conclusion
We determined the SEC’s minimum and maximum award levels are reasonable.
Since there are few empirical studies on whistleblower award levels, to obtain
cross-cutting results it may be beneficial if the Government Accountability Office
would conduct a long-term, government-wide study on how whistleblower
motivations are affected by award levels.


Question 5: Determine Whether Appeals Process
has been Unduly Burdensome for the
Commission
Pursuant to the Dodd-Frank Act, Section 922(d)(1)(E), OIG’s assessment of
whether the appeals process has been unduly burdensome on the Commission
found that, currently no whistleblower appeals have been filed with the Federal
Court of Appeals. However, one whistleblower has appealed a preliminary
determination that the Claims Review Staff made. 25 Based on our analysis of the
appeals process we do not believe it has been unduly burdensome on the
Commission.

25
     The date of the whistleblower appeal was November 6, 2012.
Evaluation of the SEC’s Whistleblower Program                                            January 18, 2013
Report No. 511
                                                Page 24
Rights of Appeal in SEC’s Whistleblower Program
Section 21F of the Exchange Act provides the whistleblower with the opportunity
to appeal SEC whistleblower final orders within 30 days after the order is issued
to the Federal Court of Appeals under the following conditions:

           •   If the whistleblower has received an award that falls between 10
               to 30 percent of the monetary sanctions collected in the action,
               the process is complete and the amount is not subject to
               appeal.
           •   If the whistleblower was found to be ineligible for an award, or
               the award amount is outside of the statutory 10 to 30
               percentage that is established for monetary sanctions, the
               whistleblower may appeal the decision at the Federal Court Of
               Appeals level. 26

The final rules also give the whistleblower a right to appeal a preliminary
determination made by the Claims Review Staff.

           •   Once the Claims Review Staff has issued a preliminary
               determination, the whistleblower has 30 days to request a copy
               of the record the Claims Review Staff used to make their
               decision and/or request a meeting with OWB staff to discuss
               their case.
           •   The claimant may file an appeal within 60 calendar days of the
               later of (i) the date of the preliminary determination, or (ii) the
               date when OWB made materials available for review.

Status of Appeals
To date no actual appeals of the Commission’s final order in a whistleblower
case have been filed with the Federal Court of Appeals. Four whistleblowers
(includes two that submitted multiple applications for awards) have requested a
copy of the record that the Claims Review Staff used in making preliminary
determinations in their particular cases. One whistleblower sent an email to the
OWB staff declaring their intention to appeal the preliminary determination. The
OWB staff anticipates that the four whistleblowers who requested copies of the
records will also appeal their preliminary determinations. To date, one appeal to
the Claims Review Staff has been submitted to OWB.

Appeals Process
When a whistleblower requests a copy of the record that the Claims Review Staff
made a preliminary determination on, the OWB staff must review the record to

26
     OGC handles the appeal for the Commission.
Evaluation of the SEC’s Whistleblower Program                              January 18, 2013
Report No. 511
                                                  Page 25
ensure sensitive information is not released and OWB redacts the record as
appropriate. OWB staff coordinates with the whistleblower and has them sign a
non-disclosure agreement before the record is released to them. In the event
that an appeal of the SEC’s final order is filed in the Federal Court of Appeals,
OWB would need to collect pertinent records to assist OGC with the litigation.
These efforts by the Commission are reasonable and are generally expected in a
regulatory agency.

Conclusion
OIG determined that potential whistleblower appeals have not been unduly
burdensome on the Commission.


Question 6: Determine Whether the Funding
Mechanism for the Investor Protection Fund is
Adequate
Pursuant to the Dodd-Frank Act, Section 922(d)(1)(F), OIG determined that the
funding mechanism for the IPF, which was established by Section 922, is
adequate. The IPF was established at a funding level that has not required
replenishment in over two years. If the IPF balance drops below $300 million,
Enforcement and OFM will replenish it by identifying qualifying receipts for
deposit. Currently, the fund is earning interest through short-term investments
with the Bureau of Public Debt.

Establishment of the Fund
The IPF was established in the fourth quarter of fiscal year 2010 to be available
to the Commission, without further appropriation or fiscal year limitation for
paying awards to whistleblowers and funding the work activities of OIG’s
employee suggestion program. The SEC is required to annually request and
obtain apportionments from OMB to use these funds. OFM has developed
policies and procedures for IPF that include a description of the whistleblower
awards process, financial reporting requirements, budget request procedures,
and procedures for replenishing the IPF.

The IPF was first established in August 2010 with approximately $452 million of
non-exchange revenue that was transferred to the fund from the SEC’s
disgorgement and penalties deposit fund. In the SEC’s fiscal year 2013
apportionment, nearly $452 million was still available in IPF. Since its
establishment the IPF’s balance has not fallen below $300 million and no
additional qualifying collections have been deposited into it.


Evaluation of the SEC’s Whistleblower Program                       January 18, 2013
Report No. 511
                                         Page 26
Ongoing Funding Mechanism
The IPF can be replenished in the following ways:

           •   If the balance falls below $300 million, qualified collections
               identified by Enforcement and OFM’s Treasury Operations
               Branch can be used to replenish the fund. 27

           •   The SEC has authority to invest amounts in the IPF in overnight
               and short-term market-based Treasury bills through the Bureau
               of the Public Debt. The interest earned on the investments is a
               component of the balance of the IPF and is available to be used
               for the fund’s expenses.

Use of the Investor Protection Fund
In 2012, the IPF was used to pay one whistleblower award which amounted to
approximately $46,000. As previously mentioned, the fund is also used to pay
for OIG’s employee suggestion program activities which amounted to $112,000
in fiscal year 2011 and $70,000 in fiscal year 2012. 28 Even though some
expenditures were paid from the fund, its balance has not substantially changed
since the fund was established.

Conclusion
OIG determined that the funding mechanism for the IPF established by Section
922 of the Dodd-Frank Act is adequate for three reasons. First, the IPF was
initially established at a funding level that has not required replenishment since
its inception. Secondly, if the IPF balance ever drops below $300 million
Enforcement and OFM can replenish the fund by identifying qualifying receipts
for deposit. Finally, interest earned on the IPF through short-term investments
with the Bureau of Public Debt amounted to an additional contribution of
$990,000 into the fund in fiscal year 2011, and $757,000 in fiscal year 2012.
These contributions exceeded the total expenditures for both years.




27
     Exchange Act Section 21F(g)(3).
28
     Exchange Act Section 21F(g)(2)(B).
Evaluation of the SEC’s Whistleblower Program                              January 18, 2013
Report No. 511
                                          Page 27
Question 7: Determine Whether a Private Right of
Action Should be Added to SEC’s Whistleblower
Program
Pursuant to the Dodd-Frank Act, Section 922(d)(1)(G), OIG’s assessment of
whether, in the interest of protecting investors and identifying and preventing
fraud it would be useful for Congress to consider empowering whistleblowers or
other individuals, who have already attempted to pursue a case through the
Commission, to have a private right of action to bring suit based on the facts of
the same case on behalf of the government and themselves, against persons
who have committed securities fraud––found that it is premature to introduce a
private right of action into the SEC’s whistleblower program at this time, since the
program is still relatively new and has only been in place since August 2011. 29
Any fundamental changes in approach would disrupt the system that is currently
in place. Upon collecting additional data and assessing the effectiveness of the
program after a reasonable amount of time, the OIG will be in a better position to
opine on the usefulness of adding a private right of action to the SEC’s
whistleblower program.

Review of Academic Literature on Private Rights of Action for
Whistleblower Programs

Since this provision of Dodd-Frank contemplates the possibility of a qui tam-type
action for securities violations, our review of academic literature focused on the
private rights of action under Rule 10b-5 of the securities regulation and the
False Claims Act (FCA) qui tam provision. 30

An overview of Rule 10b-5 offers insight into the issues that arise in the context
of private enforcement of securities laws and the qui tam provision of FCA, which
provides a procedural standard comparison to the right of action contemplated in
Dodd-Frank. Critics of private rights of action argue the private enforcement of
broad regulations is likely to result in wasteful deterrence. Public entities may
adjust enforcement levels, as well as the types of sanctions that are imposed on
corporations in response to market realities, but private actors bring suit for the
sole purpose of seeking monetary damages. Since qui tam actions could attract
unscrupulous bounty hunters, a regulatory regime that relies on private
enforcement may result in undesirable outcomes such as frivolous litigation,

29
   In the context of SEC’s whistleblower program a private right of action would allow an individual to sue a
company or individual that violated the federal securities laws on behalf of themselves and the SEC.
30
   The text of Dodd-Frank asks OIG to study whether it would be useful “for Congress to consider
empowering whistleblowers or other individuals, who have already attempted to pursue the case through the
Commission, to have a private right of action to bring suit based on the facts of the same case, on behalf of
the government and themselves,” which suggests a qui tam right of action. Dodd-Frank Wall Street Reform
and Consumer Protection Act Section 922(d)(1)(G), 124 Stat. 1376, 1849 (2010). For comparison to the
language of the qui tam provision of the False Claims Act, see 31 U.S.C. Section 3730(b)-(c) (2010).
Evaluation of the SEC’s Whistleblower Program                                            January 18, 2013
Report No. 511
                                                Page 28
collusion between plaintiffs and defendants, and delays in bringing a suit for the
purpose of increasing the bounty award amount.

Some studies we reviewed concluded the best way to ensure that private
enforcers’ interests are aligned with taxpayers’ is to permit a public regulator to
oversee the proposed lawsuits. A public enforcer can allow legitimate claims to
go through, but deny harmful, profit-seeking ones from reaching the judicial
system. This gatekeeping mechanism would reduce the risk of the system being
abused. Therefore, if Congress grants a private right of action to individuals who
want to sue for securities fraud on behalf of the government and themselves, the
studies suggest it is important to include the condition that a public enforcer has
the authority to oversee such litigation and to exercise veto power over
opportunistic lawsuits.

Views of the OWB Chief
OWB’s Chief informed OIG it is premature to consider the benefits of significantly
restructuring the SEC’s approach to a whistleblower award program and
sufficient time has not passed to assess the effectiveness of the current program
which has only been in-place since August 12, 2011. The OWB Chief is
particularly concerned that the system currently in place would be disrupted if a
private right of action were added to the enforcement mechanisms. Additionally,
he anticipated adjustments to the OWB program that may address some of the
same issues a private right of action could remedy. He suggested data should
be gathered on the program’s effectiveness before considering a dramatic
enforcement measure such as adding a private right of action to the existing
laws.

Views of Other Whistleblower Programs
OIG solicited the views of other federal government agencies with whistleblower
programs on the use of a private right of action in their programs. In general the
respondents’ views were against a private right of action. Two respondents
suggested private rights of action tend to weaken the government’s ability to
shape and develop the law and may lead to wasteful, detrimental developments,
such as pursuing a position that is inconsistent with executive and judicial
interpretations. Another respondent suggested a private right of action for
whistleblowers in the securities industry could lead to moral hazard. For
example, an uninjured plaintiff, who would not have a standing without the
whistleblower statute, could short a company’s stock and then sue the company
for an alleged violation of the securities laws in the hopes the suit would harm the
stock price. On the positive side, one respondent said that a private right of
action may be helpful when a government agency’s resources are constrained.
However, this may mean that private individuals pursue a case that the
government does not think should be pursued and would not have spent
resources on anyway.
Evaluation of the SEC’s Whistleblower Program                        January 18, 2013
Report No. 511
                                         Page 29
Conclusion
Our research determined that a private right of action to bring a suit based on the
facts of a whistleblower complaint that previously was considered by the SEC,
may be useful in furthering the interest of protecting investors and preventing
fraud in some cases. However, the unintended consequences of such a
legislative move is generally undesirable. It is premature to consider the benefits
of significantly restructuring the SEC’s approach to the whistleblower award
program. Sufficient time has is needed to assess the effectiveness of the current
program. Fundamental changes in the current approach would disrupt the
system that is currently in place. Upon collecting additional data and assessing
the effectiveness of the program in another two or three years, OIG will be in a
better position to opine on the usefulness of adding a private right of action to the
SEC’s whistleblower program.


Question 8: Determine Whether the FOIA
Exemption Added by Dodd-Frank Aids Whistle-
blowers in Disclosing Information to SEC; What
Impact it has had on the Ability of the Public to
Access Commission Information; Should be
Retained
Pursuant to the Dodd-Frank Act, Section 922(d)(1)(H), OIG further assessed:

   (a) Whether the Freedom of Information Act (FOIA) exemption
       established in Section 21 F(h)(2)(A) of the Securities and Exchange
       Act of 1934, as added by the Dodd-Frank Act, aids whistleblowers
       in disclosing information to the Commission;
   (b) What impact the FOIA exemption described above has had on the
       ability of the public to access information about the regulation and
       enforcement by the Commission of securities; and
   (c) Any recommendations on whether the exemption described above
       should remain in effect.

OIG determined that the FOIA exemption added by Dodd-Frank aids
whistleblowers in disclosing information to the Commission by serving as an
additional safeguard for whistleblower confidentiality. Further, this exemption
essentially had no impact on the public’s ability to access information about the
Commission’s regulation and enforcement of securities. Therefore, we
determined the exemption should be retained.



Evaluation of the SEC’s Whistleblower Program                         January 18, 2013
Report No. 511
                                         Page 30
FOIA Exemption (b)(3) Added Into the Dodd-Frank Act
There are nine FOIA exemptions the Commission and other federal agencies can
use to deny the release of certain information the public may request. Exemption
3, 5 U.S.C. Section 552(b)(3)(B) or (b)(3) pertains to information that is prohibited
from disclosure by another federal law.

The Dodd-Frank Act which became effective in July 2010, included FOIA
exemption (b)(3), which provides an additional safeguard to whistleblower’s
confidentiality and aids whistleblowers in disclosing information to the
Commission. FOIA exemption (b)(3) states the following:

         Except as provided in subparagraphs (B) and (C), the Commission
         and any officer or employee of the Commission shall not disclose
         any information, including information provided by a whistleblower
         to the Commission, which could reasonably be expected to reveal
         the identity of a whistleblower, except in accordance with the
         provisions of section 552a of title 5, unless and until required to be
         disclosed to a defendant or respondent in connection with a public
         proceeding instituted by the Commission or any entity described in
         subparagraph (C). For purposes of section 552 of title 5, this
         paragraph shall be considered a statute described in subsection
         (b)(3)(B) of such section.

Information that is withheld on the basis of the new FOIA exemption has always
been withheld by the SEC’s FOIA office, based on other similar exemptions, in
addition to exemption (b)(3), which indicates that whistleblower confidentiality
was addressed under FOIA’s pre-existing exemptions. 31 We discussed the use
of FOIA exemption (b)(3) with the SEC’s FOIA Officer and determined the
following:

     •   Whistleblower records are housed in the TCR system, and
         whistleblower records can be identified in TCR. The FOIA office
         will determine whether a FOIA request is related to a whistleblower
         based on whether or not the records requested are flagged as
         such.
     •   Under this exemption the FOIA office has no discretion regarding
         the release of “information provided by a whistleblower to the
         Commission, which could reasonably be expected to reveal the
         identity of a whistleblower.” Under other exemptions the FOIA
         office has discretion in weighing the privacy interest of the
         individual against the public’s right to know the information.
         Therefore, the new exemption allows the FOIA office to withhold

31
  Examples of the other FOIA exemptions that have caused SEC to withhold a whistleblower’s identity
include: (i) Exemption 6 – information involving matters of personal privacy; and (ii) Exemption 7 – records
or information compiled for law enforcement purposes . . . among others.
Evaluation of the SEC’s Whistleblower Program                                             January 18, 2013
Report No. 511
                                                 Page 31
       more information than would be withheld based on other similar
       exemptions. However, in practice this has never been the case.

The SEC’s FOIA Officer informed us the FOIA office has always withheld
information based on FOIA exemption (b)(3), as well as other similar exemptions.

Frequency that FOIA Exemption (b)(3) is Used at SEC
OIG reviewed the FOIA office’s statistics for fiscal years 2010 to 2012, regarding
the frequency and use of FOIA exemption (b)(3). Our review found the
exemption was not the sole reason for denying information request. Further, we
determined the Dodd-Frank exemption has not impacted the public’s ability to
access information about the SEC’s regulation and enforcement of securities,
since information requested would have been withheld anyway under another
FOIA exemption. We determined the exemption provides additional assurance
to the whistleblower that their identity will be protected. The OWB Deputy Chief
told OIG the exemption was a vital feature of the whistleblower program because
it gives whistleblowers an additional level of comfort. OIG’s overall results of our
review of the SEC’s FOIA exemption (b)(3) denials for fiscal years 2010 to 2012
are found below in Table 6.

        Table 6: SEC’s FOIA Exemption (b)(3) Denials
        During Fiscal Years 2010 to 2012
             Fiscal Years 2010 to 2012 Denials            Number

         Number of FOIA requests processed                33,315
         Number of times exemption (b)(3) used              26
         Number of times exemption (b)(3) added by           7
         Dodd-Frank used
         Number of times request denied on the basis        7
         of exemption (b)(3) added by Dodd-Frank in
         conjunction with other exemptions
         Number of times request denied solely on the       0
         basis of exemption (b)(3) added by the Dodd-
         Frank Act
        Source: SEC’s FY 2010 – 2012 Annual FOIA Report


Conclusion

Although FOIA Exemption (b)(3) established in Dodd-Frank allows the FOIA
office to withhold more information than would have been withheld under other
exemptions, in practice this has not been the case. Therefore, the public’s ability
to access information about the SEC’s regulation and enforcement of securities
remains essentially unchanged by this new exemption. OIG determined that
whistleblowers gained additional confidentiality safeguards and the Dodd-Frank
FOIA exemption should remain in effect.


Evaluation of the SEC’s Whistleblower Program                        January 18, 2013
Report No. 511
                                         Page 32
                                                                         Appendix I


                                 Abbreviations

         CFTC                        U.S. Commodity Futures Trading
                                     Commission
         COSO                        Committee of Sponsoring
                                     Organizations of the Treadway
                                     Commission
         DOJ                         Department of Justice
         Enforcement                 Division of Enforcement
         Exchange Act                Securities Exchange Act of 1934
         Dodd-Frank                  Dodd-Frank Wall Street Reform and
                                     Consumer Protection Act
         FCA                         False Claims Act
         FOIA                        Freedom of Information Act
         IPF                         Investor Protection Fund
         IRS                         U.S. Internal Revenue Service
         MUI                         Matters under inquiry
         NFA                         No Further Action
         OFM                         Office of Financial Management
         OGC                         Office of General Counsel
         OMB                         Office of Management and Budget
         OIG                         Office of Inspector General
         OMI                         Office of Market Intelligence
         OWB                         Office of the Whistleblower
         POC                         Point of Contact
         TCR                         Tips, Complaints, and Referrals
         SEC or Commission           U.S. Securities and Exchange
                                     Commission




Evaluation of the SEC’s Whistleblower Program                      January 18, 2013
Report No. 511
                                         Page 33
                                                                      Appendix II


                       Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. Our audit focused on the SEC’s policy and procedures for processing
whistleblower complaints. As required by Dodd-Frank Section 922, we also
reviewed the operations of OFM and the FOIA office related to the whistleblower
program. Additionally, we tested whistleblower TCRs submitted to the SEC from
August 12, 2011 to September 30, 2012.

Methodology. To meet the objective of determining whether the whistleblower
final rules made the whistleblower program clearly defined and user-friendly, we
defined and examined “clearly defined” and “user-friendly” attributes and
reviewed the final rules to determine how these attributes were presented in the
text of the final rules. Further, we reviewed and tested the SEC’s website
pertaining to the whistleblowers program to determine if it was user-friendly.

To meet the objective of determining whether the whistleblower program is
promoted on the SEC’s website and has been widely publicized, we tested the
accessibility of OWB’s website from the SEC’s public homepage, reviewed
webpage statistics, and assessed the public’s accessibility on major internet
search engines to the SEC’s whistleblower program and whistleblower
information. Finally, we reviewed OWB’s use of social media sources and its
internal and external outreach efforts to promote the whistleblower program.

To meet the objective of determining the SEC’s promptness in responding to
whistleblower information, award applications, and general requests for
information, we walked through the whistleblower process with OWB and
reviewed Enforcement, OWB, and OMI policies and procedures on the
whistleblower program and TCR. We also tested a statistical sample of
whistleblower TCRs using different attributes related to processing timeliness.
Finally, we tested OWB’s promptness in responding to award applications and
OWB’s hotline telephone calls.

To meet the objectives of determining whether the whistleblower minimum and
maximum award levels were adequate and whether the SEC’s whistleblower
program should include a private right of action, we reviewed academic literature
on both topics and solicited opinions from OWB and other federal government


Evaluation of the SEC’s Whistleblower Program                      January 18, 2013
Report No. 511
                                         Page 34
                                                                                         Appendix II


agencies with whistleblower programs. We also compared key features of SEC’s
whistleblower program with these agency’s whistleblower programs.

To determine whether the appeals process was unduly burdensome for the
Commission we reviewed potential appeals submitted to the SEC and reviewed
the appeal processes and procedures.

To determine whether the funding mechanism for the IPF is adequate, we
reviewed OFM’s IPF policies and procedures, the IPF financial statements, and
budget documents. Additionally, we reviewed the history of the IPF to include its
establishment, expenditures, and investing activities. Finally, we reviewed the
procedures established for replenishing the fund.

Finally, to determine whether the FOIA exemption added by Dodd-Frank aids
whistleblowers in disclosing information to the Commission, its impact on the
ability of the public to access SEC information, and whether the exemption
should be retained, we reviewed the SEC’s annual FOIA report for fiscal years
2010 to 2012, interviewed SEC’s FOIA Officer, and reviewed the history of SEC’s
use of the new exemption.

Internal Controls. The Internal Control—Integrated Framework, published by
the Committee of Sponsoring Organizations of the Treadway Commission
(COSO) provides a framework for organizations to design, implement, and
evaluate controls that facilitate compliance with federal laws, regulations, and
program compliance requirements. 32 For our audit, we based our assessment of
OWB’s internal controls significant to our objectives on the COSO framework as
follows: control environment, risk assessment, control activities, information and
communication, and monitoring. Among the internal controls we assessed were
the Commission and Enforcement’s controls related to processing TCRs, the
annual risk assessment for the Federal Manager’s Financial Integrity Act
assurance statement, OWB’s policies, procedures, OWB’s internal controls plan,
and OWB’s controls over external communications of the whistleblower
program. 33

Use of Computer-Processed Data. We used the SEC’s TCR system to
generate the universe of whistleblower TCRs that were submitted to the SEC
from August 12, 2011 to September 30, 2012. We also used the TCR system to
retrieved key documents for our whistleblower TCR testing.

Statistical Sampling. To review the SEC’s promptness in responding to
whistleblower information OWB used the TCR system to generate whistleblower
TCR’s that were submitted to the SEC from August 12, 2011 through September
30, 2012. Our audit universe consisted of 3,335 whistleblower TCRs.

32
   Committee of the Sponsoring Organizations of the Treadway Commission, Internal Control – Integrated
Framework (1992).
33
   Federal Manager’s Financial Integrity Act of 1982.
Evaluation of the SEC’s Whistleblower Program                                         January 18, 2013
Report No. 511
                                               Page 35
                                                                                            Appendix II


We used the EZ Quant Statistical Analysis Audit Software to generate a
statistical sample of 74 whistleblower TCRs. 34 Our sample was designed to
project rates of occurrence (e.g., percentage of whistleblower TCRs that were
submitted by the public) with 90% confidence and the point estimation was within
± 5% of the universe of TCRs under consideration.

Prior Coverage. The OIG conducted an audit of SEC’s now defunct bounty
program and issued Assessment of the SEC’s Bounty Program, Report No. 474
on March 29, 2010. The objectives of this audit were to:

         (1) Assess whether necessary management controls have been
             established and operate effectively to ensure bounty
             applications are routed to appropriate personnel and are
             properly processed and tracked; and

         (2) Determine whether other government agencies with similar
             programs have best practices that could be incorporated into
             the SEC bounty program.

The report found that although the SEC had a bounty program in-place for more
than 20 years that rewarded whistleblowers for insider trading tips and
complaints, there were very few payments made under the program. The report
further found the Commission received few applications from individuals seeking
bounties over this 20-year period and the program was not widely recognized
inside or outside the Commission. Finally, the report determined the bounty
program was not fundamentally designed to be successful.




34
   EZ Quant is statistical analysis software provided by the Defense Contract Audit Agency at their public
website. It is freeware and its use and copying is unrestricted. EZ Quant has the capability to perform both
attribute and variable sample selection and evaluation.
Evaluation of the SEC’s Whistleblower Program                                            January 18, 2013
Report No. 511
                                                 Page 36
                                                                      Appendix III


                                       Criteria

Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010,
Section 922. Section 922 outlines the statutory requirements for SEC’s
whistleblower program and required OIG to conduct an evaluation of the SEC’s
whistleblower program.

Securities and Exchange Act of 1934, Section 21F. This is an amendment in
Dodd-Frank that covers the SEC’s whistleblower program.

17 CFR Parts 240 and 249, Implementation of the Whistleblower Provisions of
Section 21F of the Securities and Exchange Act of 1934. The final rules provide
key definitions, determine who is eligible for a whistleblower award, and outline the
procedures for submitting whistleblower complaints and applications for awards.

Enforcement Manual. This is Enforcement’s internal manual and it serves as a
reference guide its staff uses to aid with investigating potential violations of
federal securities laws. The manual also includes general guidance on the
SEC’s whistleblower program.

SEC, Enforcement and OWB Policy on Handling TCRs. Internal SEC policy
and procedures on handling tips, complaints, and referrals.

OWB Policies and Procedures. This includes OWB’s policy and procedures on
the SEC whistleblower program’s operations, guidance on tracking and
documenting whistleblower claims, procedures for notifying whistleblowers on the
status on their complaints, OWB’s hotline telephone call protocol, etc.

OMI Triage Manual and Allocation Principles. OMI’s internal policy and procedures
covering the review, disposition and allocation of TCRs the SEC receives.

OFM Policies and Procedures on the Investor Protection Fund. OFM’s
internal policy and procedures covering IPF, to include financial reporting
requirements, budget submissions, and replenishing the IPF.

5 USC Section 552, Freedom of Information Act. FOIA requires federal
agencies to make certain agency materials available for public inspection and
copying. FOIA also provides for exemptions to this requirement.

OMB Circular A-123, Management’s Responsibility for Internal Control.
Establishes that management has a fundamental responsibility to develop and
maintain effective internal controls.



Evaluation of the SEC’s Whistleblower Program                       January 18, 2013
Report No. 511
                                         Page 37
                                                                    Appendix IV


                      List of Recommendations

Recommendation 1:

The Division of Enforcement should ensure that the Office of Market Intelligence
(OMI) assesses the manual triage process and establishes key performance
metrics that can be used to measure process performance. These performance
metrics should be documented in OMI’s written policies and procedures.

Recommendation 2:

The Division of Enforcement should ensure that the Office of the Whistleblower
(OWB) assesses the key performance measures that are contained in their
internal control plan and develop performance metrics where appropriate. These
performance metrics should be added to OWB’s internal control plan.




Evaluation of the SEC’s Whistleblower Program                     January 18, 2013
Report No. 511
                                         Page 38
                                                                     Appendix V


Access to OWB’s Website from the SEC’s Website

There are four or more possible ways the public can access OWB’s website to
learn about the whistleblower program or file a complaint with the SEC. The
SEC’s public website consists of two hyperlinks: (1) Submit a Tip File a
Complaint, and (2) Large “whistle” image, as shown in Figure 1, that takes the
public to OWB’s website. The third way to reach OWB’s website from the SEC’s
homepage is by using the search engine on the SEC’s public website. OIG’s use
of the keyword “whistleblower” and the option “SEC Documents” in the search
engine resulted in 397 options, the first of which led us to OWB’s website.
Finally, from the SEC’s public website, the “Education” drop down menu has a
“File a Tip or Complaint,” option that takes the public to OWB’s website. Overall,
we found the quickest way to access OWB’s website is by clicking on the
“Whistle” hyperlink.

          Figure 1: SEC Website




          Source: http://www.sec.gov

When the hyperlink “Submit a Tip File a Complaint” is clicked from the SEC’s
website, the public is taken to a “Questions and Complaints” webpage which
consists of four options regarding various SEC programs that can be accessed,
as illustrated below in Figure 2.




Evaluation of the SEC’s Whistleblower Program                      January 18, 2013
Report No. 511
                                         Page 39
                                                                       Appendix V


          Figure 2: SEC Questions and Complaints Webpage




          Source: http://www.sec.gov/complaint/select.shtml

The third option “Learn about the whistleblower provisions,” feeds directly into
OWB’s website. OWB’s website is shown in Figure 3.

          Figure 3: OWB Website




          Source: http://www.sec.gov/whistleblower




Evaluation of the SEC’s Whistleblower Program                        January 18, 2013
Report No. 511
                                             Page 40
                                                    Appendix VI


                       Management Comments




Evaluation of the SEC’s Whistleblower Program      January 18, 2013
Report No. 511
                                         Page 41
                                                           Appendix VI




Evaluation of the SEC’s Whistleblower Program      January 18, 2013
Report No. 511
                                         Page 42
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
